                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                              '   CLOSEOUT MEMORANDUM

TO: AIGI       File Number: I94080035                                            Date: 13 March 2002

Subject: Closeout Memo
                                                                             I           Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have informed an NSF Program officer2
     that the Lab ~ i r e c t o was
                                r ~ using grant hnds for his own postdoctoral researchers and signing the
     relevant paperwork. After review by the institution's4 Internal Audit and at our request, $13,242.00
     was credited back to the subject's grant.

     Accordingly this case is closed.    .




   Name:



 Signature &
    date:
